No. 19-288

IN THE

Supreme Court of the United States

JAVIER SANCHEZ, GREGORY CASORSO,
and MICHAEL MARR,

Petitioners,

Vv.
UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari
to the United States Court of
Appeals for the Ninth Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Jeffrey L. Fisher, a member of
the bar of this Court, certify on this 5th day of December, 2019, that the Reply Brief
for Petitioners in the above-captioned case contains 1,448 words, excluding the

parts of the document that are exempted by Supreme Court Rule 33.1(d).

 
    

Jeffrey L. Fisher
